No. 20-74

IN THE

*uprente Court of tije liniteb 6tateo
UNITED STATES OF AMERICA,
Petitioner,
v.
IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

MEMORANDUM FOR RESPONDENT MERCK
SHARP & DOHME CORP.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,317 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2020.

(
1- /
Cohn Case
ogan
Wilson-Epes Printing Co., Inc.

